HHS/OIG, Audit -"Medical Review of Synergy Behavioral Healths Partial Hospitalization
Services for the Period August 1, 2000, through December 31, 2002,"(A-06-04-00076)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medical Review of Synergy Behavioral Healths Partial Hospitalization
Services for the Period August 1, 2000, through December 31, 2002," (A-06-04-00076)
March 9, 2006
Complete
Text of Report is available in PDF format (2.4 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the claims that
Synergy Rehab Services Inc. (Synergy) submitted for partial hospitalization program
(PHP) services met Medicare reimbursement requirements.  For 51 of 100 sampled claims,
medical reviewers determined that Medicare reimbursement requirements were not met, primarily
for two reasons:  (1) the patient did not need, or was unable to benefit from, the
services; and (2) the patient's medical records lacked the required documentation.  We
recommended that CMS determine the allowability of the claims that resulted in our $3,098,296
statistical estimate of unallowable payments.  Synergy strongly disagreed with the
findings and took issue with many aspects of the review, including the audit review process
and the medical determinations.  We have issued the final report directly to CMS for
resolution.